NO. 20-_____

In the
Supreme Court of the United States
AMERICARE EMERGENCY MEDICAL SERVICE, INC,

Petitioner,
v.
STATE OF NEW JERSEY, DEPARTMENT OF HEALTH,
OFFICE OF EMERGENCY MEDICAL SERVICES,
JAMES SWEENEY, SCOTT PHELPS, ERIC HICKEN,
BELL MEDICAL TRANSPORTATION,

Respondents.
__________________________

On Petition for a Writ of Certiorari to the
Supreme Court of New Jersey
PETITION FOR A WRIT OF CERTIORARI

LISA CLEVELAND

COUNSEL OF RECORD

COOKE CHEVALIER, PLLC
1717 PENNSYLVANIA AVENUE
SUITE 1025
WASHINGTON, DC 20006
(917) 971-0401
LISAC@COOKECHEVALIER.COM

SHAY DESHPANDE
LAW OFFICES OF
SHAY SHAILESH DESHPANDE
245 CRESENZI COURT
WEST ORANGE, NJ 07052
(973) 454-8964

COUNSEL FOR PETITIONER

MAY 7, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTIONS PRESENTED
On June 16, 2019 Superior Court Judge Lynott
reversed AmeriCare’s license suspension after findings
of provable due process and civil rights violations
and reinstated Americares’s license/ property rights
and standing. The Appellate Division cited the sole
basis of their ruling on two (2) key status terms
regarding licensure, being “Expired” or “Revoked”.
They claimed that once a license was “expired” or
“revoked this negated standing. AmeriCare’s license
was Never “revoked” or “expired” at any time during
these proceedings.
1. Does the Appellate Division’s ruling regarding
standing remain valid if both of the status terms the
Court relied upon were held factually inaccurate,
which would have given AmeriCare legal standing to
challenge a constitution due process violation by a
State Agency of a taking of property (a license)?
2. Do the determinations of State agencies that
deprive African Americans and communities of color
the specialized emergency and critical healthcare
services afforded other communities in the state violate
the Equal Protection clause of the 14th Amendment
as well as the State Constitution’s due process and
equal protection requirements?
3. Does the State Appellate Division opinion
violate the United States Constitution’s Equal Protection Clause requirements when it declines to consider or
examine evidence found by the Trial Court that disclose
acts of State Agencies constituting a “taking” of
property (a license) without complying with constitutionally due process procedures?

ii
4. Does a state agency’s violation of the 14th
Amendment’s due process requirement impact the
rights of African Americans and other minorities
when it ignores the state’s constitutional due process
protections?
.

iii
PARTIES AND CORPORATE DISCLOSURE
Petitioner
●

AmeriCare Emergency Medical Services, Inc.
AmeriCare has no parent corporation and
no public company owns greater than 10%
of its stock.

Respondents
●

State of New Jersey

●

Department of Health

●

Office of Emergency Medical Services

●

James Sweeney

●

Scott Phelps

●

Eric Hicken

●

Bell Medical Transportation

iv
LIST OF PROCEEDINGS
Supreme Court of New Jersey
Case No: 084600
AmeriCare Emergency Medical Service, Inc., PlaintiffPetitioner, v. The City of Orange Township, Bell
Medical Transportation, Township of Irvington, and
Township of South Orange, Defendants, and
State of New Jersey Department of Health Office
of Emergency Medical Services, James Sweeney,
Scott Phelps, and Eric Hicken,
Defendants-Respondents.
Date of Final Order: December 8, 2020
_________________
Superior Court of New Jersey Appellate Division
Docket No: A-0117-19T4
AmeriCare Emergency Medical Service, Inc., PlaintiffRespondent, v. The City of Orange Township, Bell
Medical Transportation, Township of Irvington, and
Township of South Orange, Defendants, and
State of New Jersey Department of Health Office
of Emergency Medical Services, James Sweeney,
Scott Phelps, and Eric Hicken,
Defendants- Appellant.
Date of Final Opinion: May 27, 2020

v
_________________

Superior Court of New Jersey
Law Division–Essex County
Docket No. ESX-L-2397-19
Americare Emergency Medical Service, Inc., Plaintiff, v. The City of Orange Township, State of New
Jersey Department of Health Office of Emergency
Medical Services, James Sweeney, Scott Phelps and
Eric Hicken, Defendants.
Date of Bench Ruling: June 2, 2019

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES AND CORPORATE DISCLOSURE ......... iii
LIST OF PROCEEDINGS ......................................... iv
TABLE OF AUTHORITIES ...................................... ix
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
STATEMENT OF THE CASE .................................... 2
A. Background ...................................................... 2
1. AmeriCare’s Excellent Performance
History......................................................... 2
2. Threats and Interference with Bid
Process......................................................... 5
B. Superior Court Proceedings Prevented
from Adjudicating Civil Rights and Due
Process Violations ............................................ 7
C. Relevant Legal and Administrative
Proceedings..................................................... 10
1.

AmeriCare Is Subjected to Additional
Inspections and Terminated ...................... 13

2. New Jersey Officials Leak Privileged
Information and Defame AmeriCare ....... 15
REASONS FOR GRANTING THE PETITION ....... 21
I.

NEGLIGENT ACTS-ILLEGAL CONDUCT-WANTON
INDIFFERENCE TO HUMAN LIFE ....................... 21

vii
TABLE OF CONTENTS – Continued
Page
II. INEQUITABLY APPLICATION OF THE LAW AND
DISPROPORTIONATE HARM SUFFERED IN
MINORITY COMMUNITIES ................................. 23
III. CONFLICTS OF INTERESTS-CORRUPTION-OFFICIAL
MISCONDUCT-IMPROPER ACTS UNDER THE
COLOR OF AUTHORITY ...................................... 24
A. A Revoking of a License Without Due
Process Is a Violation of the Due Process
Clause of the 5th and 14th Amendment
of the United States Constitution ............ 26
B. A Taking of Property by an Agency of
the State in Violation of That Agency’s
Own Rules and Regulations and with
Disregard for Plain Conflicts of Interest
Violates State Laws and Is a Violation
of the Due Process Provisions of 5th
and 14th Amendments of the United
States Constitution ................................... 31
CONCLUSION.......................................................... 34

viii
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of New Jersey
(December 8, 2020) ............................................. 1a
Opinion of the Superior Court of New Jersey
(May 27, 2020) .................................................... 3a
Order of the Superior Court of New Jersey
Granting Motion (September 13, 2019) ........... 18a
Order of the Superior Court of New Jersey
Denying Stay (July 17, 2019) ........................... 19a
Order to Show Cause with Temporary Restraints
(July 16, 2019) .................................................. 21a
Transcript of Decision
(June 2, 2019) ................................................... 25a
OTHER DOCUMENTS
Application for Permission to File
Emergent Motion (July 17, 2019) .................... 69a
Letter from the Department of Health Regarding
Notice of Summary Suspension
(June 18, 2019) ................................................. 82a

ix
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Barry v. Barchi,
443 U.S. 55 (1979) ............................................. 31

Owens v. Feigin,
194 N.J. 607 (2008) .................................. 9, 26, 28
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. IV .............................................. 29
U.S. Const. amend. V .................................... 26, 29, 31
U.S. Const. amend. VI ............................................. 29
U.S. Const. amend. XIV ................................ 26, 29, 31
STATUTES
28 U.S.C. § 1257 .......................................................... 1
42 U.S.C. § 1983 .......................................................... 8
N.J.A.C. § 2C:29-1..................................................... 22
N.J.A.C. § 8:41(a).................................................... 8, 14
N.J.A.C. § 8:41-12.3(a) ............................................ 7, 13
N.J.A.C. § 8:41-2.6(a)(2)(i) ............................. 13, 20, 22
N.J.S.A § 52:13D-2 II-(1) et seq............................ 12, 30
N.J.S.A. § 52:13D-23 ................................................. 15
N.J.S.A. 10:6-2(c) ........................................................ 8
N.J.S.A. 10:6-2(d) ........................................................ 8

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner, AmeriCare Emergency Medical Services,
Inc., respectfully petitions for a writ of certiorari to
review the judgment of the Supreme Court of New
Jersey in this case.

OPINIONS BELOW
The December 8, 2020 Order of the Supreme Court
of New Jersey denying a petition for certification is
included below at App.1a. The May 27, 2020 Opinion
of the Superior Court of New Jersey, Appellate
Division opinions I included below at App.3a. The
bench ruling of the New Jersey Superior Court, Essex
County, dated June 2, 2019 is included below at
App.25a.

JURISDICTION
The opinion of the Supreme Court of New Jersey
was entered on December 8, 2020. This Court’s
jurisdiction is invoked under 28 U.S.C. § 1257.

2

STATEMENT OF THE CASE
A.

Background
1. AmeriCare’s Excellent Performance History

Petitioner AmeriCare Emergency Medical Service
(“AmeriCare”) is in the business of, among other things,
providing EMS transportation services in the Vicinage
of Essex County, New Jersey. Until the actions of the
Defendants that gave rise to AmeriCare’s NJCRA
claims, the Company had contracts with the City of
Irvington, Village of South Orange and was in the
process of securing contracts with Orange Township
and was the sole and lowest bidder for the City of
East Orange. (Pa15). They also provide Specialized
Advanced Critical Care Services (SCTU) for critically
ill and injured neonatal, pediatric, and adult patients
primarily in the urban communities of New Jersey.
Fabrizio Bivona is AmeriCare’s Founder and CEO.
He is one of the most experienced nationally accredited
Advance Life Support Paramedics and Critical Care
Registered Nurses in the country. He is a 9/11 First
Responder and dedicated highly decorated public
servant with an exemplary record of service. (Pa1-2).
He has been appropriately certificated and licensed
as a first responder and health care professional for
the past 35 years, which requires significant continuing
education and validation by clinical coordinators,
professional directors and Board-certified emergency
room physicians who must attest to his clinical proficiency. (Ibid.)

3
Further, Mr. Bivona is also a Critical Care Emergency Board Certified Emergency Nurse with a
distinguished and unblemished record. (Ibid.) He is also
a published author and recognized expert in the field
of critical care and pre-hospital ambulance services.
(Pa2). His primary service areas that span his 35year career are the urban communities of New Jersey.
AmeriCare had been operating for six (6) years
with an excellent service record and without significant complaints. (Pa3). It had a proven track record
of excellent patient care and has demonstrated a
commitment to the challenges facing the healthcare
industry, especially with respect to the provision of
ambulance services. The Company has received national
and international recognition and received the prestigious American Board of Nursing Specialties (ABNS)
Award (2016) based on recognized achievements and
for exceeding the high industry standards for advanced
life support specialized critical care service. This
exclusive award has been historically awarded to
prestigious institutions such as John Hopkins (2014),
University of North Carolina Hospitals (UNC), Chapel
Hill NC, to name two. Mr. Bivona respected and independent agency conducts thorough inspections and
review of thousands of healthcare organizations nationally, seeking one healthcare provider that exceeds strict
industry standards. (Ibid.)
Despite its stellar record with no patient complaints of which AmeriCare was ever made aware,
beginning in June 2018 the New Jersey State Department of Health (“DOH”) and OEMS filed a summary
suspension of AmeriCare’s licensure including
Mobil Assist Vehicle (MAV), Basic Life Support (BLS),
and Specialty Care Transport Unit (SPTU), based on

4
hundreds of allegations of non-compliance with regulations and accusations that it was an imminent threat
to the public safety that was ultimately proven to be
untrue. (Pa5).
Over the span of AmeriCare’s business history
following year OEMS conducted several comprehensive
audits and at least twenty (20) physical inspections of
AmeriCare and its vehicles. This is a disproportionately
high number when compared to other similar EMS
providers. (Pa4). This investigation included several
comprehensive inspections/audits of tens of thousands
of patient care documents, repeated reviews and submissions of AmeriCare’s Standard Operating Procedure
manuals, review of compliance records, forms, logs,
equipment, supplies medications and many other items
including items outside of their regulatory authority.
(Ibid.)
OEMS had unfettered access to AmeriCare’s facilities, vehicles, inventory, supplies, personnel records,
and certification validations, among other items. (Ibid.)
Some of the specific violations cited were items or equipment that were previously inspected and approved by
NJ DOH (OEMS) Officials but later deemed to be violations. The NJ DOH OEMS Regulations clearly state
that it would have been a violation if AmeriCare
changed or altered previously inspected and passed
items or equipment. NJ DOH officials’ actions intentionally created a situation that regardless of AmeriCare’s
action or inaction a violation was cited, despite full
compliance with NJ regulations. The State Agency
created a circular conundrum in which AmeriCare
could never be compliant.
After the conclusion of fourteenth months false and
unsupportable allegations, NJ DOH OEMS withdrew

5
ALL the charges. This ended the attempt at the
2018 summary suspension and ceased actions to
permanently revoke AmeriCare Ambulance’s license.
(Pa4). This unprecedented full withdrawal on ALL
accusations, charges and violations came without any
conditions, warnings, settlement, fines, directives
guidance or admonitions. There was no request or
mandate by NJ DOH OEMS officials for a Correction
Action Plan (CAP) and AmeriCare was immediately
returned to service and permitted to treat critically
injured or ill patients without any covenants or
restrictions.
NJ Superior Court Judge Lynott stated, “But on
the present record, there is an indication that prior
regulatory matter was withdrawn in a manner that
didn’t reflect any type of enforcement consequence—
formal enforcement consequence in the form of final
penalty or a Consent Order or specific correction
action plan that was put in place.” Docket #ESX-L2397-19 06-16-2019 (Ibid.). He is the second Judge to
acknowledge the violations of AmeriCare’s due process
rights by the NJ DOH.
2. Threats and Interference with Bid Process
AmeriCare has made significant investments in
assets to primarily service underserved communities
experiencing a critical shortage for these much-needed
essential services. These communities appreciated
the quality of care provided by AmeriCare’s services
evidenced by numerous Thank you letters from facilities
and individual healthcare professionals. AmeriCare
was consistently awarded new large-scale contracts
and gained new clients. The corporate entities that
held a virtual monopoly in these communities for

6
years were replaced by AmeriCare through a legal,
fair, and competitive bidding processes.
The communities’ collective decision to change
providers to AmeriCare was not well received by the
corporate entities that previously held these contracts
and AmeriCare was approached by corporate representatives who solicited and threatened AmeriCare as a
result of their acquisition of these contracts. At the
time the threats appeared implausible as they
threatened to put AmeriCare immediately out of
business if they didn’t comply with their demands.
The threats appeared hollow as they expressed
their ability to get “Bloody if needed.”
However, the threats were immediately followed
by a series of suspensions and revocation actions by
NJ DOH officials starting May 30, 2019 that culminated
in the immediate closure of AmeriCare’s business.
Judge Lynott took judicial notice that leaked and
privileged communications between NJ DOH officials
and AmeriCare’s competitors followed these threats.
Docket #ESX-L-2397-19 Judge Testa of NJ OAL also
questioned NJ State Officials as to their motivation
and premature timing of this revocation action and
stayed AmeriCare’s case Docket #2019-0091V pending
resolution of civil rights and due process issues by
the higher courts.
These NJ State Officials acting under the color
of authority went on to threaten and intimidate
strategic partners such as Virgo and Rescue Heart
Ambulance whom AmeriCare was utilizing to fulfill
its contractual obligations. NJ DOH OEMS Officials
not only threatened to harass and shut down these
licensed ambulance companies for assisting AmeriCare,
but they showed up where their vehicles were located

7
and commenced with sham inspections and created
violations immediately placing ALL their replacement
vehicles out of service. After these strategic partners
succumbed to their threats, the violations miraculously
disappeared, and they were permitted to return to
service without reinspection as required by NJ regulation N.J.A.C. 8:41-12.3(a). In fact, one strategic partner
Virgo ambulance, was offered our contracts by NJ
OEMS Officials as a reward for their acquiescing to
their threats.
B.

Superior Court Proceedings Prevented from
Adjudicating Civil Rights and Due Process Violations

Judge Lynott took judicial notice of the nefarious
conduct by NJ DOH officials which was evidenced by
allegations that were thoroughly investigated three
(3) months earlier and were conclusively determined
to be compliant with all NJ regulations. Their pattern
and practices of using template violations in the
absence of evidence contradict their own official determination and conclusions they previously presented
the court. Docket #HLT-087-41-8, HLT-10883-18 NJ
DOH officials’ new allegations were not simply
debunked by their own agency many were knowingly
implausible. For example, the false allegation that
AmeriCare’s Standard Operating Procedure (SOP)
manual was not compliant was implausible based on
their official determination, testimony, and evidence
that they presented Judge Morejon in case HLT08741-8 that it was approved and complaint since April
2014.
Judge Lynott took judicial notice that some of
AmeriCare’s ambulances were taken out of service by

8
NJ DOH officials which they admit they did not inspect
in direction violation of NJ regulations. NJ Regulation 8:41(a) Vehicle Inspections, NJ Regulations 8:41(a)
Judge Lynott acknowledged, “at last two of the
ambulance vehicles and the–the mobility assistance
vehicles were placed out of service without having
actually been inspect . . . ” The regulations require
physical inspections of vehicles equipment or crewmembers in order to place a “Out of Service Sticker
on the window. The regulations also require that the
inspectors memorialize their observations of alleged
violations and create a report which should have
been provided to AmeriCare which was not possible
because NJ DOH officials admit they did NOT inspect.
Judge Lynott also took judicial note that NJ DOH
investigators Eric Sweeney and Eric Hicken were
suspended and prohibited to participate in this case
after the leaked confidential documents were presented
to the court.
On June 16, 2019 Superior Court Lynott stated,
“As noted, I find that there are substantial grounds
present in the record for this case to proceed ON A
THEORY OF CIVIL RIGHTS” He properly accepted
the case adhering to the United States Civil Rights
Act (CRA) 1983 law and New Jersey Civil Rights Act
N.J. 10:6-2C and 10:6-2D. Judge Lynott offered his
opinion that concluded the facts of this case demonstrated irregularities and due process and civil rights
violations against AmeriCare Ambulance. Superior
Court Judge Lynott stated, “I find, having examined
the present record, that there is sufficient basis in
that record to permit this case to proceed in this Court
as a cognizable claim for Violation of Civil Rights,
and to differentiate it from the far more typical case of

9
a regulatory oversight and enforcement action properly
venued in the requisite administrative agency and
subject to its administrative procedures.” (Docket
#ESX-L-2397-19 date June 16, 2019)
Precedent case law rightfully recognizes there is
no jurisdictional nor an absolute requirement for
administrative exhaustion when its balanced against
civil rights and due process violations. Administrative
remedies have been exhausted and demonstrate their
inability or unwillingness to adjudicate civil rights
and due process claims. Judge Testa who has stayed
the current case #2019-0091V before her deferring
jurisdiction to the U.S. Supreme court. Judge Morejon
in OAL case docket #HLT-087-41-8, HLT-10883-18
also deferred adjudication on the Constitutional issues
to the higher courts. and instructed plaintiffs to seek
remedy in those venues. Judge Lynott went on to state,
“to exhaust administrative remedies would appear to
be somewhat at odds with the Owens case (Owens v.
Feigin, 194 N.J. 607 (2008), which indicates that these
types or procedural prerequisites are not apposite in
circumstances involving claims of violation of civil
right.” He goes on to say, “the exhaustion requirement will be waived where the interest of justice so
requires.”
Superior Court Judge Lynott and Owens v. Feign
understood that directing the plaintiffs to go back
before the very agencies that had previously admittedly deprived the plaintiff of its constitutionally protected civil and due process rights was a conflict of
interest and would waive the interest of justice.
Proven evidence exists that executive agencies and
agents have material and widespread conflicts of interests and cannot be considered fair and non-biased

10
arbiters of their own conduct. To allow Executive
Authority and influence be the sole unchecked branch
of government is in direct contrast to the checks and
balances at the foundation of the U.S. Constitution
and would neuter civil rights and due process protections.
The State of New Jersey appealed Judge Lynott’s
decision, but the Appellate Court upheld the decision.
After the Appellate Division declined to reverse the
decision, the State of New Jersey was given an unprecedented opportunity for a second appeal and exceeded
the timeframe for the appeal. This second review was
initially gridlocked by a (2) judge panel but was decided
by the presiding justice who admittedly excluded any
review or considerations regarding the core civil rights
and due process issues that served as the basis of the
decision rendered by Judge Lynott in Superior Court.
Instead, they solely based their decision on “standing.”
They based their entire opinion that a party lacks
standing if their license has either been “expired”
or “revoked”. AmeriCare was neither “expired” nor
“revoked” during the court proceedings or at any time
during their inception and spanning their 6-year work
history. AmeriCare’s license was fully valid for at least
nine (9) days without any restrictions or covenants
during the timeframe considered by the second appellate panel which directly contradicts the sole foundation
of the erroneous decision to reverse the Superior
Court’s judicially sound decision.
C.

Relevant Legal and Administrative Proceedings

Judge Lynott of Superior Court recognized a
pattern and practice by NJ DOH officials that appeared
again on May 30, 2019, NJ DOH OEMS officials

11
serially suspends AmeriCare’s licenses with knowingly
false information while simultaneously depriving civil
and due process rights. For example, they alleged
violations on patient care reports, documents, and files
that they themselves had reviewed for more than two
(2) years and determined to be 100% complete and
compliant. Their nefarious conduct weaponized and
corrupted their executive authorities, the courts, and
other executive agencies. NJ DOH officials have
weaponized this emergent authority intended to be
used for public safety not as a weapon to selectively
close down agencies that compete with their corporate
partners. It is important to note that NJ DOH
officials admitted and it was proven that they were
fully aware that AmeriCare was complainant during
the (7) month suspension period but knowingly continued the suspension and escalated their malicious
prosecution by acts to permanently revoke AmeriCare’s
license.
In May 30, 2019 NJ DOH again intimated suspensions on knowingly false information and have
prematurely initiated license revocation that was
recognized by Judge Testa. She has questioned the
motives of the prosecution seeking permanent license
revocation when the due process of the suspension
has yet to be heard or adjudicated. NJ DOH OEMS
Officials acting in bad faith have effectively weaponized
the NJ State Agencies and have contaminated the
judicial branch through their misconduct. NJ DOH
OEMS Officials intentionally and maliciously harmed
AmeriCare Ambulance in order to remove a competitive threat of their illegal private corporate partners.
This behavior is prohibited by NJ State Laws and
the NJ Code of Ethics. NJ Code of Ethics. (N.J.S.A

12
52:13-D2 II-(1), II-(3), II-(4), II-(5), II-(6), IV, (1), IV, (2).
IV, (3), XIII (3), XIII (8).) [Judge Testa’s questioning
is correct as the motives of NJ DOH are derelict.
Judge Cookson. referencing another NJ DOH case
that occurred July 04, 2020 criticized NJ DOH for a
pattern and practice of depriving defendants’ due
process and civil rights. Judge Cookson stated, “The
EMS office, in the state Department of Health, acted
with a “serious lack of due process” Judge Cookson
went on to caution the NJ Department of Health for
their disregard for public interest by their conduct,
““Nevertheless, there is also a public interest in government providing due process to its citizens before
depriving them of property rights”
NJ Department of Health Judith Persichilli criticized her own department and one of the defendants
in this case for leaking confidential and privileged
information. Commissioner Persichilli also says that
“Christopher Neuwirth, a high-ranking health official
fired last month, was let go because the Murphy
administration was convinced he was leaking confidential information . . . ” (NJ advanced media/June 15,
2020 Susan Livio/Ted Sherman). This demonstrable
pattern and practice by NJ DOH officials improperly
leaking proprietary and protected information, data,
and communications directly to AmeriCare’s competitors
has caused great harm and deprived AmeriCare of
fundamental civil and due process rights.
Emails and communications between May 31,
2019 and June 3, 2019 were produced to Judge Lynott
showing NJ DOH officials had provided false and
damaging information to AmeriCare’s clients and
competitors intentionally misrepresenting that AmeriCare Ambulance had been shut down when this was

13
false. These communications are telling because they
predetermined suspensions and revocations prior their
investigations, inspections, and audits.
The NJ DOH Officials acting under the color of
authority accessed and distributed AmeriCare’s proprietary and privileged information to its competitors
who enjoyed material benefit. NJ OEMS Officials were
caught issuing illegitimate violations on vehicles that
they never inspected in violation of NJ State OEMS
Regulations (NJ 8:41-2.6(a)(2)(i), NJ 8:41-12.3(a) that
requires a physical vehicle inspection and the physical
placement of a Department Issued Out of Service
(DIOSS) sticker be affixed to one of the windows and
requires a written report be issued to the provider
detailing observations and violations. NJ DOH officials
later admitted that their regulatory requirements for
physical inspections were violated.
1. AmeriCare Is Subjected to Additional Inspections and Terminated
On June 5, 2019, Mr. Bivona received a text
message from an employee of RWJ that stated: “Hi Fab.
Heard through the grapevine that you are having some
issues. Anything I need to know?” (Pa12, 41). Mr.
Bivona responded, in relevant part, “I’m not sure
what you’re referring to regarding the issues. Let me
know what you heard we’re not aware of anything
unusual going on.” (Ibid.)
On June 10th and 12th of 2019, additional inspections were performed in which three of AmeriCare’s
vehicles passed and were placed back in service. (Pa1213, 57-61). OEMS, however, refused to inspect and
pass the remaining vehicles despite failing to identify
any violations, and more importantly had refused to

14
perform any further re-inspections making it clear
that it would not do so for the foreseeable future in
direct violation of NJ OEMS Regulation 8:41-12.3(a)(3)
unless it was made to. AmeriCare Ambulance was a
license agency and the NJ DOH had a fiduciary responsibility and duty to conduct the inspections. (Pa13).
Indeed, on or about June 13, 2019, Mr. Bivona spoke
with Eric Hicken, another OEMS Official, about this
issue, but he simply advised that this issue was
“above [his] pay grade” and that he therefore could
not communicate any further with Mr. Bivona and
had to cancel the inspections that had been scheduled
for that day. (Pa13). This unprecedented action violated
NJ OEMS Regulations (which) and violated the
Licensing Agreement made between the State of NJ
and AmeriCare.
Notwithstanding the fact that three additional
AmeriCare vehicles had passed inspection and placed
back in service, an OEMS representative improperly
communicated with a city attorney for Orange Township noting that over 50% of AmeriCare’s vehicles
remained out of service. (Pa13). This was significant
because AmeriCare was on the verge of obtaining a
contract to provide EMS services to Orange. (Ibid.)
This breach of public trust by NJ OEMS officials
served no legitimate purpose and caused great damage
to AmeriCare’s business.
As indicated above, there was a week delay
between the date of OEMS suspension letter was
finalized (June 16, 2019) and when AmeriCare actually
received it (June 25, 2019). Nevertheless, officials at
Orange Township and Irvington, among others, were
notified by OEMS employees about the summary
suspension prior to AmeriCare learning of it. (Pa14).

15
Ultimately, the summary suspension forced AmeriCare
to stop providing EMS ambulance services which
resulted in Irvington terminating its contract with
AmeriCare. (Pa15)
2. New Jersey Officials Leak Privileged Information and Defame AmeriCare
NJ DOH officials not only violated their own
policies and NJ Code of Ethics N.J.S.A 52:13D-23 by
leaking privileged, confidential, and proprietary information they disseminated to AmeriCare’s clients and
competitors knowingly false and harmful information
that AmeriCare had been shut down and was out of
business. This was followed by them acting under
the color of authority actively soliciting AmeriCare’s
the clients and contracts as representatives for their
corporate partners. NJ DOH officials’ premature official
determination to suspend and revoke AmeriCare’s
license PRIOR to the inspections proved malicious
intent and the deprivation of 6th amendment due
process rights.
Judge Lynott took judicial notice that there were
multiple validated communications and emails of
confidential and privileged information furnished by
NJ State DOH officials to unauthorized people, as
well as competitors of AmeriCare. On June 3, 2019
AmeriCare received an email from the business
administrator for the Township of South Orange
explaining that OEMS had contacted them to advise
that AmeriCare had been shut down by the State
and therefore none of its vehicles were in service.
(Pa11-12, 37). This improper notice was provided to
South Orange more than two weeks prior to the summary suspension notice being dated and served upon

16
AmeriCare. Thereafter, AmeriCare was advised via
letter that as a result of the information improperly
disclosed from OEMS, its contract with South Orange
was terminated. (Pa11-12, 39).
They not only leaked privileged information, but
they also spread defamatory and false information to
AmeriCare Ambulance’s clients, and they posted
libelous misleading information on the Official NJ state
department of health website. It is accessible from
anywhere in the world and remained on their website
despite multiple objections by the plaintiffs contesting
the false information. The NJ DOH website incorrectly
displayed AmeriCare’s licensure status “REVOCATION” in blue and all caps. This posting was factually untrue as AmeriCare Ambulance’s license has
NEVER been “revoked”. The display on NJ DOH
website for AmeriCare Ambulance was notably
different than other similar agencies that are labeled
as revoked as theirs are smaller fonts, not all caps,
and are often prefaced as pending. There are agencies
and individuals who are either pending or suspended
and Revoked that do not appear on the NJ DOH
website. on their website. The libelous postings and
the inequity in the application of NJ laws and regulations and exposes their malicious acts under the
color of authority and the weaponization of their
authority.
Many of the allegations NJ DOH OEMS officials
were using for this next round of suspensions and
revocations were simply implausible. For example,
the June 2019 summary suspension letter states that
AmeriCare did not have a Standard Operating Procedure (SOP) Manual for its staff, yet only a few months
earlier OEMS had completed multiple inspections and

17
audits and had numerous communications regarding
AmeriCare’s SOP. The result of this extensive process
reaffirmed that AmeriCare Ambulance complied with
years of inspections audits and submissions that
were all reviewed and officially approved by NJ DOH.
NJ DOH affirmed and determined that AmeriCare
Ambulance had an SOP that was 100% compliant
with NJ regulations and NJ DOH standards from
April 2014 to the present. To again use this knowingly
false information as a basis for the June 2019 suspension demonstrates a pattern and practice by NJ DOH
officials who have effectively weaponized their executive authority intentionally disregarding facts and
exculpatory evidence that they had themselves
provided. It is important to note that NJ DOH investigator Thomas Hendrickson testified under oath that
he and the New Jersey Department of Health possessed
AmeriCare’s approved SCTU SOP but chose to ignore
the document. Instead, he testified that he altered
and misrepresented another document he had altered
and presented it as a foundation for a false allegation
that AmeriCare was not operating with an approved
SCTU SOP. The court concluded and Investigator
Hendrickson ultimately testified admitting his inappropriate actions and confirming that AmeriCare’s SOPs
were 100% complaint with all NJ state regulations.
(Judge Morejon Docket #HLT-087-4108, HLT-1088318).
On May 31, 2019 NJ DOH officials again reasserted the false allegation that AmeriCare did not
have an approved SOP even though only months earlier
they testified, admitted, and confirmed in fact had
SOP’s that were 100% complaint with all NJ State
regulations. They had also affirmed that the SOPs

18
were reviewed and approved as far back as April 2014.
(Ibid.) The suspension letter similarly alleges lack of
patient care records (PCR) even though OEMS had
unfettered access to all of AmeriCare’s PCRs and
spent more than a year reviewing them and finding
them one hundred percent (100%) satisfactory. (Ibid.)
AmeriCare Ambulance’s competitors and clients
received confidential and privileged communication
and correspondence regarding AmeriCare’s status and
investigations. NJ DOH official letter to AmeriCare
was postmarked June 20, 2019 and was delivered and
received by AmeriCare on June 25, 2019. NJ DOH
OEMS timed its actions to benefit AmeriCare’s
competitors and caused harm to AmeriCare and
created a public safety hazard. (Pa5, 77). The reckless
conduct by NJ DOH officials of delaying and intentionally failing to communicate with AmeriCare Ambulance is a pattern and practice that was evidenced by
a previous suspension that was initiated on May 17,
2018 but was not postmarked until May 30, 2018 and
not received by AmeriCare until June 02, 2018.
Despite NJ State DOH OEMS Officials intentionally and maliciously withholding these documents,
and admitting to failures in timely communications
with AmeriCare, they petitioned the court to find
AmeriCare guilty for violating the suspension during
the timeframe between May 17, 2018 through June 02,
2018. This is a suspension that the Officials admitted
AmeriCare was fully unaware. They admitted that,
despite possessing AmeriCare’s contact information
such as phone numbers and emails that they routinely
previously used to communicate with AmeriCare
Ambulance they testified that they did not make any
effort to contact AmeriCare regarding the actions

19
they had taken. NJ DOH Officials defended their
actions for admittedly disregarding self-described grave
and serious threats to the public that was so egregious
it would likely cause deaths, they did not act or make
any effort to communicate or mitigate the dangers
they claim existed from January 30, 2018 through June
02, 2018. (Judge Morejon Docket #) When confronted
by Judge Morejon for the reason they allowed this
delay and the dangerous public safety risk for more
than five (5) months, Investigator Hendrickson blamed
Governor Phil Murphy for the delay.
Mr. Bivona certified to the lower court that additional allegations made by NJ DOH OEMS Officials
that its investigators were hindered from accessing
AmeriCare and its vehicles or records were simply
false. To the contrary, OEMS’ investigators were
offered open and unfettered access and even testified
under oath that AmeriCare management were professional and cooperative and allowed full access to its
vehicles, equipment, and resources as per the regulations. Judge Lynott strongly disagreed with NJ DOH
Officials’ allegations of lack of cooperation and compliance and went on to state, the allegation of a lack of
cooperation as well appears at—at—at odds to the
extent that not only was Mr. Bivona at a very early
state in—in touch with regulatory authorities, but there
were reinspection of the vehicles, those reinspections
were successful .So in the absence of—of further, it’s
difficult to credit the contention laid out in the letter
as the basis for the summary suspension.:” (Pa5-6).
AmeriCare staff also provided the personal cell
numbers of its management to OEMS’ investigators
per Mr. Bivona’s instructions as an extraordinary
effort to comply and cooperate with the investigation,

20
as evidenced by handwritten notes of OEMS officials.
(Pa6, 23)
Indeed, it appears that OEMS had always intended
to suspend AmeriCare’s operations regardless of the
facts as evidenced by Mr. Bivona having received
numerous communications between May 30, 2019
and on or about June 3, 2019, Sweeney, an OEMS
investigator, arrived unannounced at AmeriCare’s facility located in Irvington, ostensibly to inspect its vehicles.
(Pa11). Despite “inspecting” one vehicle, AmeriCare was
notified that OEMS took all of AmeriCare’s emergency
vehicles out of service based on claims that it was
unable to find its other vehicles in violation of NJ 8:412.6(a-2i). (Ibid.) This extraordinary action by OEMS
officials is in direct contradiction to their own regulations and past practices.

21

REASONS FOR GRANTING THE PETITION
I.

N EGLIGENT A CTS -I LLEGAL C ONDUCT -W ANTON
INDIFFERENCE TO HUMAN LIFE

AmeriCare’s vehicles, EMS personnel and a
critically ill patient were placed at grave risk by NJ
DOH Investigators James Sweeney and Eric Hicken
acting under the color of authority. They arrived on
an emergency scene where AmeriCare had been
dispatched with Advance life support (ALS) paramedics
for a critically ill elderly African American woman
suffering a life-threatening acute illness. The Investigators violating both NJ State law and NJ state
regulations did interfere and obstructed emergency
medical personnel in the performance of their official
duties when they approached and questioned EMS
personnel who were in that back of an ambulance
with all emergency lights activated next to another
ambulance with all their emergency lights activated.
These inappropriate actions interfered and likely
caused harm to the patient but were compounded by
the reckless and illegal acts by these NJ State DOH
officials who initiated and participated in an illegal
high-speed pursuit using unauthorized emergency
lights and sirens. AmeriCare and MONOC EMS personnel were attempting to treat and transport their
patient to a level one trauma center but were confused
and distracted by the pursuing vehicles operated by
NJ DOH officials. This illegal, reckless, and unnecessary high-speed pursuit would have violated the NJ
Attorney General guidelines for a police officer under
similar circumstances. The NJ DOH investigators

22
James Sweeney and Eric Hicken violated the following
NJ State AG Guidelines: (State of New Jersey Office
of the Attorney General Department of Public Safety/
New Jersey Vehicular Pursuit Policy/September 17,
2009 I. (A) (1) (a), I. (A) (1) (b), I. (A) (2), I (B) (2), I.
(B) (a, b, c, e) (3), I (4), I. (C) (1)(a, c, f, g),(II) (A), (II)
(C) (1,2,3,4,5,6) (III)(A) (2), (III) (D), (III) (G), ((V)
(A,B,C,D,E), (VI) (A) (1,2) (B), (C), (IX) (1,2,3,4,5,6,7,)
(IX) (B) (1,2,3,4,5,6,) (XI) (A),(B), (C). for pursuits in
New Jersey if they were legally authorized to engage
in such dangerous pursuits. This was not the case as
NJ OEMS DOH Officials are not authorized or legally
permitted to engage in ANY type of vehicle pursuits.
The interference and obstruction of the EMT’s
and paramedics by the NJ DOH OEMS Officials is
expressly prohibited by NJ State Laws and NJ DOH
OEMS Regulations 8:41-2.6(a)(2)(i) NJ 2C:29-1. The
initiation of this high-speed pursuit by NJ DOH
OEMS Officials was not only illegal, but it was also
harmful, as it delayed patient care. The pursuit was
also unnecessary. The Officials had access to the
communication centers and could have been directed
to the hospital destination if they needed to contact
the EMS crews.
On June 02, 2019 NJ DOH officials acting under
the color of authority recklessly and with depraved
indifference removed ALL the 9/11 ambulances from
service depriving the City of Irvington of this critical
emergency essential service. NJ DOH officials did
not notify AmeriCare management of their actions
and did not provide mutual aid or back up services
that were available but not activated by NJ DOH
officials. NJ DOH officials would later falsely that the
City was covered by 9/11 ambulance, but this was

23
contradicted by the 9/11 center’s email alerting AmeriCare that there were NO ambulances available to
answer calls inside the City of Irvington.
When the NJ DOH OEMS Officials were questioned about their actions and the lapse of EMS
services that AmeriCare was concerned about, they
stated that AmeriCare did not have to worry about
the coverage, as this had been addressed by them
using resources, they had obtained to respond to 911
calls. This statement turned out to be untrue and
AmeriCare was able to obtain coverage with our
strategic partners. The public health crisis was resolved
as AmeriCare was able to find coverage using Virgo
ambulance and Rescue Heart Ambulance. NJ DOH
OEMS Officials were notified about the coverage and
responded by harassing, threatening, and creating
violations against the providers offering EMS services
as they attempted to bring in their desired corporate
partners.
II.

INEQUITABLY APPLICATION OF THE LAW AND
DISPROPORTIONATE HARM SUFFERED IN MINORITY
COMMUNITIES

The plaintiff has personally experienced and
witnessed acts of racism and misogyny committed by
NJ State Officials and initiated and provided a sworn
notarized complaint to the NJ State Equal Employment
Opportunity Commission (EEOC). EEOA/AA No. 2019873/OES No. 2019-83. Plaintiff attempted to warn
NJ State officials that minority communities in New
Jersey were seriously and imminently facing grave
threats to their lives and wellbeing. The betrayal of
public trust and Constitutional transgressions are
serious for any public official but are particularly

24
heinous in this case, as the New Jersey Department
of Health (DOH) is entrusted with the very health,
safety, and lives of people.
The Covid pandemic and the morbidity and mortality rate among Black and Hispanic patients is not only
the highest in the nation but New Jersey’s death rate
is presently the highest in the world. The record high
number of deaths and illness inside New Jersey’s
Nursing home and prisons has been attributed in
large part to delays, failures, conflicts of interest that
appear to exist inside the Department of Health. In
June of 2020, the NJ State Senate empaneled a committee to specifically investigate the failures and
widespread corruption inside the Department of Health
and the Executive branch. Their mandate is primarily
focused “the Disproportionate impact on minorities”,
Death’s at the state’s long-term care facilities, “Deaths
at the prisons”. (NJ Advanced Media/Susan K. Livio/
June 02, 2020) These shocking statistics for a state in
a developed nation exposes a failure with the primary
agency tasked with the health and well-being of its
citizenry (NJ Department of Health).
III. CONFLICTS OF INTERESTS-CORRUPTION-OFFICIAL
MISCONDUCT-IMPROPER ACTS UNDER THE COLOR OF
AUTHORITY
Patterns and practices of egregious official misconduct and conflicts of interest has spanned years
and have been highly publicized causing several of the
defendants and other NJ State DOH officials have
been terminated or separated from their employment
with the State of NJ State. Governor Murphy publicly
terminated defendant Christopher Neuwirth (Assistant
Commissioner of Health/Director of Emergency Med-

25
ical Services) and publicly criticized material conflicts
of interests, “Folks . . . it’s par for the course if you’re
not supposed to have another source of income.”
Senator Declan O’ Scanlon publicly decried the
corruption and misconduct and understands the public
safety consequences of allowing it to continue, “Failure to disclose a conflict like that stinks of corruption.
This needs to be investigated further and Neuwirth
and the Department need to explain this. This chaos
comes at a time when our Health Department is most
needed—as we are managing a pandemic and headed
into hurricane season.” Senator O’ Scanlon continued, “Not disclosing such a gross conflict of interest
is bad, but there is a history here!”
However, the unemployment of terminated and
separated NJ State Officials was short lived, as
many of these same NJ State Officials were offered
and provided highly placed and lucrative employment
with AmeriCare’s competitors. Competitors who had
lost government contracts to AmeriCare but immediately regained these same contracts, secondary to the
nefarious actions, under the color of authority. The
nefarious conduct was so pervasive that NJ DOH
officials were opening soliciting for their corporate
partners while acting under the color of authority.
The New Jersey Department of Health (DOH)
and the executive authority for New Jersey do not
dispute that they have deprived AmeriCare
Ambulance of their property, due process and civil
rights through nefarious misconduct but rather rely
on assertions of lack of standing that have proven to
be incorrect.

26
A. A Revoking of a License Without Due Process
Is a Violation of the Due Process Clause of
the 5th and 14th Amendment of the United
States Constitution
The revocation of a license authorizing the delivery
of services constitutes a taking of a thing of value in
which a person or entity has a “property” interest.
Such a taking plainly constitutes a violation of the
5th and 14th Amendments to the United States Constitution. In civil cases, the Fifth Amendment requires that “due process of law” be part of any and
every proceeding that denies a citizen “life, liberty or
property.” Owens v. Feigin, 194 N.J. 607, 611, 947
A.2d 653 (2008). The 14th Amendment expanded the
due process clause of the Fifth Amendment to apply
to the states, as well as the federal government in
the third clause with the following, “nor shall any
State deprive any person of life, liberty or property,
without due process of law.” The 14th Amendment is
critical to this case as it granted the civil rights of
any person born or naturalized in the United States,
which became particularly important to Blacks and
other people of color by specifically stating that “All
persons born or naturalized in the United States and
subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside.”
At the core of this case are Constitutional issues
involving rights and protections that have life and
death consequences that extend beyond the facts of
this case. The Department of Health (DOH) of New
Jersey (NJ) is an agency entrusted with the sacred
duties and responsibilities related to the health and
lives of our loved ones and neighbors. The DOH of NJ
has received national criticism for reported failures,

27
corruption and institutionalized racism that is believed
to have led to thousands of “preventable deaths”
disproportionately harming Black residents of New
Jersey. The plaintiff’s in this case identified, notified,
and attempted to seek remedies through executive
agencies pertaining to proven Constitutional, civil,
and due process rights violations and proven nefarious
conduct by NJ State officials. (Superior Court Judge
Lynott Docket #ESX-L-2397-19Docket #06016-2019,
EEOA/AA no. 2019-873/ODES NO. 2019-83-07-16-20).
NJ Governor Phil Murphy and Departments of
Health Commissioner Judith Pershilli have publicly
acknowledged that conflicts of interest and official
misconduct by NJ DOH officials exist and includes
defendants in AmeriCare’s case. The Courts of New
Jersey have either declined to review or adjudicate
Constitutional issues or have deferred this to the
U.S. Supreme Court with the exception of the Superior
Court which reviewed and found Serious Constitutional
violations of civil and due process rights. This decision
was erroneously reversed by the NJ Appellate Division
on the sole issue of “standing” who mistakenly, determined that AmeriCare’s license was either “Revoked”
or “Expired” AmeriCare was neither “Expired “or
“Revoked” and maintained a valid license without
any restrictions or covenants that should have legally
established AmeriCare’s “standing.” Based on the
definition provided by the Appellate Division. (Court
Docket #HLT-087-41-8, HLT-10883-18, Office of
Administrative Law-(OAL) Judge Morejon-08-01-2018,
2019-0091V-Judge Testa (OAL) Judge Cookson (OAL).
The official misconduct by NJ State officials and
NJ State Executive Authority attempts to supersede
the U.S. Constitution and circumvent critical judicial

28
and legislative authority. This can only succeed if the
protections afforded by U.S. Supreme Court’s review
and application of the relevant protections of the
U.S. Constitution are denied.
Judge Lynott of the New Jersey Supreme Court
examined the fact pattern and the civil and due
process protections and rightfully followed the relevant
precedent case of Owen v. Feign which recognized
that in the interests of justice this was the appropriate venue for to adjudicate civil rights and due
process protections. The NJ Appellate Division that
initially reviewed the appeal agreed with Judge
Lynott’s decision and found no basis for appeal. The
Administrative judges also agreed that their venues
were inappropriate to adjudicate issues beyond regulatory statutes and deferred the Constitutional civil rights
and due process issues to the higher to the higher court.
Judge Testa of OAL ordered AmeriCare Ambulance
to and the NJ Superior Court which was erroneously
reversed by a series of errors pertaining to the facts
evidence and laws.
The Appellate Division clearly stated in their
opinion that they would not review or evaluate Constitutional violations that were relied upon by the
Superior Court. They further erred in their decision
as they improperly cited lack of standing by the
plaintiff that has proved was false. There was legal
property possession which the Appellate court admitted would have provided legal standing for the Plaintiff. The Appellate Division also erred in its opinion
when it stated that remedies and Constitutional Protections are extinguished at the exact moment property
is improperly taken. This argument would negate
due process, aggrieved parties’ remedies and would

29
make possession of property 100% absolute regardless of the legality reading the means of taking or
possession of the property.
The NJ Supreme Court offered no opinion on the
constitutional, civil, and due process issues that were
proven to exist. These very arguments that were
relied upon by the NJ Superior Court negates the
protections implied by Constitution. It is for this
reason AmeriCare seeks the opinion of the United
States Supreme Court. Without SCOTUS intervention,
the constitutional due process rights of untold numbers
of small minority businesses will continue to be
violated by rogue State Agencies across the nation.
New Jersey State’s Attorney General’s office is
constitutionally tasked with investigation and prosecution of criminal and regulatory statutes. Currently
the NJ State Attorney General stands as the legal
representation for the defendants that face serious
allegations of criminal conduct, and judicially affirmed
deprivation of U.S. civil and due process rights. Proven
evidence violations of AmeriCare’s 4th, 5th, 6th, and
14th amendments exist. However, due to inherent
conflicts of interest, there is currently no Agency in
the State of New Jersey that can investigate and
prosecute as the sole legal agency is prohibited by
legal and ethical obligations they have created with
the defendants. Their legal mandates are directly
juxtaposed and have deprived AmeriCare a pathway
to justice in this case.
Conflicts of interest are pervasive and demonstrable regarding agents of the NJ Department of
Health. These Conflicts of interest and allegations of
official misconduct have been levied by Governor
Murphy and Senator O’ Scanlon among many other

30
high-level NJ State Officials. This case presents
significant layers of conflicts of interests that has
created a situation where constitutional rights have
either been intentionally deprived or sidelined because
of admitted inappropriate relationships and appear
have violated the NJ Code of Ethics. (N.J.S.A 52:13D-2 II-(1), II-(3), II (4), II (5), II (6), IV, (1), IV, (2). IV,
(3), XIII (3), XIII (8).)
More than three years have passed whereby
AmeriCare Ambulance and the communities they
service have been punitively harmed by provable
nefarious actions and official misconduct. During this
lengthy timeframe NJ State Officials have failed to
comply with discovery requests and have failed to
produce witnesses for cross examination despite court
orders, legal discovery demands and court directives.
It has been proven and NJ State officials have testified to the withholding, altering and destruction of
evidence and witnesses. (Docket #HLT-087-4108, HLT10883-18, Judge Morejon, 08-01-2018). Some of the
evidence presented in this brief is based upon open
source and media publications that have been produced
because of allegations of preventable deaths and
widespread corruption that is associated with the NJ
Department of Health.
This precedent cannot stand because it will lead
to tyranny of the executive branch of the New Jersey
Government and extinguish fundamental constitutional
protections for the citizens of New Jersey. The United
States Supreme Court can restore the trust and
integrity of the State of New Jersey by either vindicating or remediating the State’s institutions that hold
the very lives and wellbeing of our mothers, fathers,
and children in their hands.

31
B. A Taking of Property by an Agency of the
State in Violation of That Agency’s Own Rules
and Regulations and with Disregard for Plain
Conflicts of Interest Violates State Laws and
Is a Violation of the Due Process Provisions
of 5th and 14th Amendments of the United
States Constitution
State rules and regulations have been promulgated for the specific purpose of ensuring that administrative actions are fair and do not ignore or disregard
state and federal laws and constitutional mandates
protecting the rights of individuals and ensuring that
all action respect critical due process protections. Barry
v. Barchi, 443 U.S. 55
The official misconduct by NJ State officials and
NJ State Executive Authority attempts to supersede
the U.S. Constitution and circumvent critical judicial
and legislative authority. This can only succeed if the
protections afforded by U.S Supreme Court’s review
and application of the relevant protections of the U.S.
Constitution are denied.
The Department of Health (DOH) of New Jersey
(NJ) is an agency entrusted with duties and responsibilities that directly impact the health and lives of
our loved ones and neighbors. The DOH of NJ has
received national criticism for reported failures, corruption and institutionalized racism that is believed to
have led to thousands of “preventable deaths” disproportionately harming Black residents of New Jersey. The
plaintiff’ in this case identified, notified and attempted
to seek remedies through executive agencies pertaining
to Constitutional, civil and due process rights violations
as they relate to conspicuously unlawful conduct by
NJ State officials. (Superior Court Judge Lynott Docket

32
#ESX-L-2397-19 Docket #06016-2019, EEOA/AA no.
2019-873/ODES NO. 2019-83-07-16-20).
NJ Governor Phil Murphy and Departments of
Health Commissioner Judith Pershilli have publicly
acknowledged that conflicts of interest and official
misconduct by NJ DOH Officials exists, including the
defendants in AmeriCare’s case. The Courts of New
Jersey have either declined to review or adjudicate
constitutional issues or have deferred this to the U.S.
Supreme Court except for the NJ Superior Court
which reviewed and found Serious Constitutional
violations of civil and due process rights and reversed
improperly initiated actions by corrupt NJ DOH
officials. (Court Docket #HLT-087-41-8, HLT-1088318, Office of Administrative Law-(OAL) Judge Morejon08-01-2018, 2019-0091V-Judge Testa (OAL) Judge
Cookson (OAL).
More than three years have passed whereby
AmeriCare and the communities they service have
been punitively harmed by provable nefarious actions
and official misconduct. During this lengthy timeframe
NJ State officials have failed to comply with discovery
requests and have failed to produce witnesses for
cross examination despite court orders, legal discovery
demands and court directives. It has been proven
and NJ State officials have testified to the withholding,
altering and destruction of evidence and witnesses.
(Docket #HLT-087-4108, HLT-10883-18, Judge Morejon,
08-01-2018) Some of the evidence presented in this
brief is based upon open source and media publications that has been produced because of allegations of
preventable deaths and widespread corruption that is
associated with the NJ Department of Health.

33
This precedent cannot stand because it will lead
to tyranny of the executive branch of the New Jersey
Government and extinguish fundamental constitutional
protections for the citizens of New Jersey. The United
States Supreme Court has the opportunity to restore
the trust and integrity of the State of New Jersey by
either vindicating or remediating the State’s institutions that hold the very lives and wellbeing of our
mothers, fathers, and children in their hands.
The Administrative Law Division and the Superior
Courts of New Jersey have openly acknowledged and
found serious civil rights and due process violations
in this case and other related cases pertaining to the
misconduct by NJ DOH officials. They have also acknowledged and currently stayed the case because
they have asserted their limitations and, inability to
address broader issues of official misconduct, civil
rights and due process rights abuses. The court ordered
the plaintiff to withhold and NOT submit a prepared
brief detailing civil rights and due process violations,
detailing official misconduct, corruption and conflict
of interests related to the case. (Docket #2019-0091V
10-05020, Judge Testa 10-05-20)

34

CONCLUSION
The NJ Superior Court Law Division examined
the facts and made a deliberate and thoughtful decision based on relevant case law, and the United
States and New Jersey Constitutions. The decision
carefully considered and based the Court’s decision
in favor of the protection of fundamental civil and
due process rights. The Trial Court wrote an extensive
and comprehensive opinion detailing U.S. Constitutional protections as the filter and foundation for his
judicially sound decision. The Superior Court considered the facts and evidence before them and determined there were discrepancies, inconsistencies and
implausible allegations of violations made by NJ
DOH OEMS. Combined with egregious abuses under
the color of authority and a pattern and practice of
official misconduct, Judge Lynott rightfully determined
that in the interests of justice and relevant case law
determined the Superior Court was the appropriate
venue. (Docket #ESX-L-2397-19, Judge Lynott NJ
Superior Court-06-16-2019)
Judge Lynott also found the allegation that
AmeriCare Ambulance was not cooperative was inconsistent with the facts and referenced the plaintiffs’
ongoing compliance and cooperation. Finally, Judge
Lynott took note of the fact that the investigators
conducting this investigation were abruptly suspended
from this case which was highly unusual. These findings perfectly substantiate the plaintiff’s position
and lay the framework for a fair and just conclusion
in plaintiff’s favor. The ongoing damage being done
by the substantive due process and civil rights viola-

35
tions are extensive for AmeriCare, but more importantly, have resulted in a butterfly effect that is
causing serious harm to the fundamental civil rights
protections in the minority communities. The most
important civil liberty–that of life itself has been
threatened, such as in the above-referenced case of the
high-speed pursuit, while AmeriCare tried to serve
an ailing African American woman. The people who
are adversely affected by the inappropriate actions
by NJ State Officials have been deprived of desperately needed professional, emergency essential
services, particularly within urban communities that
AmeriCare was actively servicing.
The U.S. Supreme Court has a distinguished and
honorable history as a firewall for injustice and a
safeguard for the underprivileged and defenseless.
We seek that wisdom and oversight to help address
the core Constitutional principles that are causing
ongoing harm to the some of the most aggrieved and
vulnerable members of our communities. Martin
Luther King understood the U.S. Supreme Court
represented a lifeline and stood as the “good people”
who historically remedied injustice. Reverend King,
Jr. stated, “The ultimate tragedy is not the oppression
and cruelty by the bad people but the silence over
that by good people.”
We respectfully seek that lifeline today. During
these tumultuous times where, racial inequities are
being exposed and equal access to justice and services
is under reform and review, the Supreme Court
stands as the sole remedy to ensure these communities
do not suffer further harm by executive tyranny and
nefarious conduct. The U.S. Supreme Court has the

36
unique opportunity to again be a counterbalance this
injustice and stand as a guardian for civil rights.
“Injustice anywhere is a threat to justice everywhere.” Martin Luther King Jr. For all the foregoing
reasons, plaintiff/respondent AmeriCare Emergency
Medical Services, Inc. respectfully requests that the
Court reject the Appellate Division precedent and reinstate the Civil Rights Claims against all of defendants/
appellants: NJ Department of Health, Office of Emergency Medical Services, James Sweeney, Scott Phelps
and Eric Hicken, and other NJ DOH officials and the
lift the stay of proceedings before the Law Division.
For the foregoing reasons, this court should grant
this petition for Writ of Certiorari.
Respectfully submitted,
LISA CLEVELAND

COUNSEL OF RECORD

COOKE CHEVALIER, PLLC
1717 PENNSYLVANIA AVENUE
SUITE 1025
WASHINGTON, DC 20006
(917) 971-0401
LISAC@COOKECHEVALIER.COM
SHAY DESHPANDE
LAW OFFICES OF
SHAY SHAILESH DESHPANDE

245 CRESENZI COURT
WEST ORANGE, NJ 07052
(973) 454-8964

COUNSEL FOR PETITIONER
MAY 7, 2021

